WAIVER
Supreme Court of the United States
No. 21-5069
William Paul Burch
(Petitioner)

v.

Freedom Mortgage Corporation, et al.
(Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.
Please check the appropriate box:
0 I am filing this waiver on behalf of all respondents.
EX I only represent some respondents. I am filing this waiver on behalf of the following
respondent(s):
Michael Weems; Hughes Watters Askanase, LLP; Specialized Loan Servicing LLC

Please check the appropriate box:
o I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)
GI( I am not presently a member of the Bar of this Court. Should a response be requested, the
response will b i d by a Bar member. (Filing Instructions: Mail the original signed form
to: Supreme mil; Attn: Cler 's Office, 1 First Street, NE, Washington, D.C. 20543).
Signature
Date:

7/26/2

(Type or print) Name

Charles Edwin Harrell, Jr.
0 Mr.

O Ms.

0 Mrs.

0 Miss

Firm Hughes Watters Askanase LLP
Address 1201 Louisiana, 28th Floor
City & State Houston, Texas
Phone

713/759-0818

Zip 77002
Email eharrell@hwa.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.
cc: William Paul Burch; Marcie L. Schout, Counsel for Respondent JP Morgan Chase Ba
EIVEa
Stephen C. Parsley, Counsel for Respondent Freedom Mortgage Corp.; Thomas F. Lo se,
Counsel for Homeward Residential Inc. and Ocwen Loan Servicing, LLC, Matthew B.
AUG - 3 2021
Fronda, Counsel for Padfield & Stout and Mark W. Stout

OFFICE OF THE CLERK
SUPREME COURT U.S

